OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/INDONESIA'S
BANDA ACEH-LAMNO ROAD
RECONSTRUCTION
ACTIVITIES UNDER ITS
TSUNAMI RECOVERY AND
RECONSTRUCTION PROGRAM

AUDIT REPORT NO. 5-497-06-003-P
March 30, 2006




MANILA, PHILIPPINES
Office of Inspector General


March 30, 2006

MEMORANDUM

TO:                  USAID/Indonesia Director, William M. Frej

FROM:                RIG/Manila, Catherine M. Trujillo /s/

SUBJECT:             Audit of USAID/Indonesia’s Banda Aceh–Lamno Road Reconstruction Activities
                     Under Its Tsunami Recovery and Reconstruction Program
                     (Report No. 5-497-06-003-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and have included your response in Appendix II of this report.

The report contains two recommendations intended to improve USAID/Indonesia’s Banda
Aceh–Lamno road reconstruction activities. Based on your comments, management decisions
have been reached for both recommendations. Please coordinate final action with USAID’s
Audit Performance and Compliance Division (M/CFO/APC).

Again, I want to express my appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Boulevard, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

Were USAID/Indonesia’s Banda Aceh-Lamno road
reconstruction activities on schedule to be completed as
planned and within the cost estimates? ............................................................................ 4

     Road Construction Delayed ........................................................................................ 5

     Contract Administration Needs
     Improvement ............................................................................................................... 7


Evaluation of Management Comments ......................................................................... 9

Appendix I – Scope and Methodology ........................................................................ 10

Appendix II – Management Comments ....................................................................... 11
SUMMARY OF RESULTS
The Regional Inspector General/Manila conducted this audit to determine whether
USAID/Indonesia’s Banda Aceh–Lamno road reconstruction activities were on schedule
to be completed as planned and within the cost estimates (page 3). Although some road
reconstruction activities were on schedule or near completion, we could not determine
whether all of the road reconstruction activities were on schedule to be completed by the
overall project completion date and within the overall estimated costs. This was
because USAID/Indonesia did not have an approved road design or an approved
implementation plan in place. Both documents were critical to evaluating whether all
road reconstruction activities would be completed by the overall completion date and
within estimated costs (page 4).

The audit found that the contractor implemented a number of the Banda Aceh-Lamno
road reconstruction activities such as mobilization, road maintenance, road rehabilitation
and removal of bridge debris (page 4). Despite this progress, as of December 7, 2005,
USAID/Indonesia did not have an approved road design or an approved implementation
plan in place. There were a number of reasons why these two documents were not in
place, including a number of changes to the original scope of work. Because these two
important documents were not in place, construction activity—the most critical activity—
was delayed and the Mission could not demonstrate how it intended to complete all of
the road reconstruction activities by the end of the contract and within the contract’s total
estimated costs (pages 5 to 7).

The audit also found that USAID/Indonesia’s Cognizant Technical Officer did not fully
comply with his designated responsibilities. As a result, the Mission was not properly
providing oversight of the Banda Aceh-Lamno reconstruction activities, which if not
corrected could impact the achievement of the reconstruction objectives (pages 7 and
8).

This report made two recommendations intended to improve USAID/Indonesia’s Banda
Aceh-Lamno road reconstruction activities (pages 7 and 8).                     Based on
USAID/Indonesia’s comments, we consider that management decisions have been
reached on both recommendations (page 9). In addition, the Mission requested that we
include additional facts within the report to better describe the Mission’s progress made
within the first three months of contract performance. We made our best effort to
present a balanced, objective view of the road construction activities and revised the
report accordingly. USAID/Indonesia’s comments are included as Appendix II to this
report (page 11).




                                                                                           1
BACKGROUND
On December 26, 2004, the largest earthquake to strike South and Southeast Asia since
1964 caused a devastating tsunami that killed several hundred thousand people. On
May 11, 2005, President Bush signed into law the "Emergency Supplemental
Appropriations Act for Defense, the Global War on Terror, and Tsunami Relief, 2005"
which provided funding for a number of purposes including assisting victims of the
tsunami. Of the $656 million appropriated to USAID, about $400 million was
provided to USAID/Indonesia. In turn, USAID/Indonesia used its funding to establish
its Tsunami Recovery and Reconstruction Program to assist Indonesian victims of the
tsunami. As part of its program, USAID/Indonesia committed to reconstruct about 240
kilometers of road between Banda Aceh and Meulaboh.

On August 23, 2005, the Mission awarded a $12 million contract to Wijaya Karya for
road reconstruction activities along the first 80 kilometers of the 240-kilometer road,
which begins in Banda Aceh and ends in Lamno. USAID/Indonesia referred to this
contract as the Priority Design Build Contract. As illustrated in the map below, the
contract required Wijaya Karya to (1) design and construct 20 kilometers of new road
in four distinct segments, and one bridge, (2) perform other road maintenance, repair
and rehabilitation work, and (3) remove bridge debris.

On November 10, 2005, the Mission awarded a $35 million contract to Parson
Global Services 1 , a U.S. Architect-Engineer firm, to perform technical design reviews
of and supervise Wijaya Karya’s reconstruction activities.




                                                                  Map showing where the four distinct
                                                                  segments of new road and the one
                                                                  bridge were to be built under the
                                                                  Priority Design Build Contract.




USAID/Indonesia’s Office of the Aceh Reconstruction is responsible for overseeing the
Priority Design Build Contract. As of November 17, 2005, the Mission had obligated
about $12 million and had disbursed $875,000 for the contract.

1
    Included in this award were funds to design and supervise road reconstruction activities of the 160
kilometers of the road from Lamno to Meulaboh.


                                                                                                     2
AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2006 annual audit plan to answer the following question:

•   Were USAID/Indonesia’s Banda Aceh-Lamno road reconstruction activities on
    schedule to be completed as planned and within the cost estimates?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                   3
AUDIT FINDINGS
Although some road reconstruction activities were on schedule or near completion, we
could not determine whether all of USAID/Indonesia’s Banda Aceh-Lamno road
reconstruction activities were on schedule to be completed by the overall project
completion date and within the overall estimated costs.             This was because
USAID/Indonesia did not have an approved road design or an approved implementation
plan in place. Both documents were critical to evaluating whether all road reconstruction
activities would be completed by the overall completion date and within estimated costs.

The Priority Design Build Contract established six road reconstruction activities to be
completed by August 23, 2006, at an estimated cost of approximately $11 million. The
table below shows the financial status of the six activities as of November 17, 2005.

       Financial Status of the Banda Aceh-Lamno Road Reconstruction Activities
                               (As of November 17, 2005) 2

                                                                                    Percent
                                                               Disbursements
                                                                                  of Budget
                                                                     as of
                 Activity                    Budget                              Disbursed as
                                                                  11/17/2005
                                        (In Thousands)                           of 11/17/2005
                                                               (In Thousands)
    1. Mobilization/Demobilization                $       22           $     9              42
    2. Road Design                                       301               111              37
    3. Road Maintenance                                  202                51              25
    4. Road Repair/Rehabilitation                        664               362              54
    5. Removal of Bridge Debris                           88                50              57
    6. Construction                                    9,950                 -               -
    Subtotals                                         11,227               583               5
    Non-Road Reconstruction
    Activities (Administration &
    Fixed Fees)                                        878               292                33
    Totals                                        $ 12,105             $ 875                 7

Through, interviews and documentation reviews, we confirmed that Wijaya Karya had
mobilized, and that it was performing road maintenance, conducting road
repair/rehabilitation, and removing bridge debris. Furthermore, through site visits we
observed that Wijaya Karya had cleared all debris and opened the 80 kilometer stretch
of road from Banda Aceh to Lamno including bridges. The contractor was successful in
clearing bridge debris and maintaining the newly opened road. Because this is the only
major road down the west coastline, rehabilitating this transportation link was critical to
support other tsunami reconstruction activities taking place down the road corridor.




2
    The amounts in this table were not audited.


                                                                                                 4
OIG photograph showing all debris had been removed from a bridge that was destroyed by the
tsunami. Remnants of the bridge can be seen on each bank just left of the new temporary bridge.
(Aceh Province, Indonesia, November 2005)

Despite progress in the above-mentioned areas, road construction was delayed and
USAID/Indonesia could not demonstrate how it intended to complete all of the road
reconstruction activities by August 23, 2006, and within the estimated costs because it
did not have an approved road design or an approved implementation plan in place. In
addition, the USAID/Indonesia Cognizant Technical Officer overseeing the contract with
Wijaya Karya did not fully comply with his designated responsibilities. These issues are
discussed below.

Road Construction Delayed
The Priority Design Build Contract set a due date of October 2005 for a road design and
a due date of Sept. 23, 2005, for an implementation plan.               However, as of
December 7, 2005, USAID/Indonesia did not have an approved road design or an
approved implementation plan in place. There were a number of reasons why these two
documents were not in place, including a number of changes to the original scope of
work. Because these two important documents were not in place, construction activity—
the most critical activity—was delayed and the Mission could not demonstrate how it
intended to complete all of the road reconstruction activities by the end of the contract
and within the contract’s total estimated costs.

No Approved Road Design – The Priority Design Build Contract required Wijaya Karya
to design and construct four segments of road totaling about 20 kilometers and one
bridge between Banda Aceh and Lamno. As stated in the contract, the contractor was to
have a completed a road design for Segment No. 1 (about 11 kilometers, see map on
page 2) by October 2005 and start construction immediately thereafter. The contractor
did not meet the contract target date. It was not until late November 2005 that the
contractor submitted a road design for Segment No. 1; the submitted design was only for
6 of the 11 kilometers. Further, as of December 7, 2005, the Mission had not approved
the contractor’s design for Segment No. 1. As a result, the contractor could not start
road construction.

There were four major reasons why a road design was not in place by October 2005.




                                                                                             5
•   The Mission, the Government of Indonesia, and the contractor did not reach
    agreement on the final road alignment (road route) until September 27, 2005—one
    month prior to the due date for a completed road design.

•   The Mission was considering changing the original statement of work—from
    constructing four distinct segments of road totaling about 20 kilometers to
    constructing one continuous 11-kilometer road consisting of Segment Nos. 1 and 3.
    This revised plan also deleted the one bridge.

•   The Mission requested the contractor to modify its road design plan at least four
    times because the contractor’s cost estimates for the road construction exceeded the
    approximately $10 million that was available for that work.

•   The Mission did not award the Architect-Engineer contract to Parson Global Services
    until November 2005—a contract that was to have been awarded in July 2005.
    Under its contract, Parson Global Services is responsible for performing technical
    reviews of the road designs prepared by Wijaya Karya. According to a Wijaya Karya
    official, the technical reviews would have helped to expedite the design phase.




                                                        OIG photograph of a section of the
                                                        Banda Aceh-Lamno road where the
                                                        original road was destroyed by the
                                                        tsunami and a temporary dirt road was
                                                        put in its place.   (Aceh Province,
                                                        Indonesia, November 2005)




No Approved Implementation Plan – According to its contract, Wijaya Karya was
required to submit an implementation plan by September 23, 2005, (30 days after the
contract was awarded). The contract also required the Mission to approve the plan. The
contractor submitted the implementation plan in October 2005; however, as of
December 7, 2005, the Mission had not approved it.

The purpose of the implementation plan was to assure, to the maximum extent possible,
the necessary performance and input for all parties to complete the road reconstruction
activities on time and within budget. The implementation plan was to include:

•   A determination of the sequence of work to be initiated, including identifying long


                                                                                         6
    lead items and determining how the contract schedule could be achieved.

•   A schedule illustrating the completion of the project within the specified time frame.

According to Mission officials, they had not approved the implementation plan because it
did not comply with certain U.S. government requirements, and because the Mission
was considering a new scope of work for the contract.

Without an approved road design and implementation plan in place, construction activity—
the most critical activity—was delayed and the Mission could not demonstrate how it
intended to complete all of the road reconstruction activities by the end of the contract
and within the contract’s total estimated costs. Therefore, we are making the following
recommendation:

    Recommendation No. 1: We recommend that USAID/Indonesia develop and
    implement an action plan with due dates to have an approved road design and
    implementation plan in place so that construction can begin and be completed by
    August 23, 2006.

Other Factors – According to Mission and Wijaya Karya officials, two other factors could
potentially impact the completion of the Banda Aceh-Lamno road reconstruction
activities: land acquisition and weather. First, the Government of Indonesia is
responsible for acquiring the right-of-way for the road from private land owners. The
land-acquisition process could be time consuming and there is no guarantee that the
Government of Indonesia would be able to complete the process quickly. Second, the
rainy season from November to February could cause flooding and make the road
inaccessible. As a result, road construction would be more difficult and more equipment
might be needed to mobilize construction—a factor that could impact construction costs.

Contract Administration Needs
Improvement
Contrary to USAID policy, the CTO’s Designation Letter, and the contractual
requirements stated in the Mission’s contract with Wijaya Karya, the CTO did not fully
comply with his designated responsibilities. For example, during the field work we
identified the following responsibilities that the CTO did properly oversee as part of his
management responsibilities for the contract.

•   Review contractor-submitted invoices for accuracy.
•   Provide administrative support to the contractor.
•   Maintain CTO work files, including documenting site visits.
•   Monitor contract reporting requirements.
For example, the CTO did not help the contractor secure tax-free status for the purchase
of construction equipment and materials, even though the contractor specifically asked
for such assistance. As another example, the CTO did not ensure that the contractor
submitted monthly progress reports required by the contract. Lastly, the CTO did not
maintain a work file and did not document any monitoring trips to Banda Aceh. The CTO
cited a lack of oversight on his part for not fulfilling his responsibilities.


                                                                                             7
These responsibilities were critical to the oversight and management of the Priority
Design Build Contract. Incomplete oversight in these areas could result in:

•   The Mission reporting inaccurate financial data or overpaying the contractor.

•   The contractor incurring additional tax costs when purchasing equipment or
    materials.

•   The CTO’s successor having difficulty in properly administering the contract.

•   The Mission not taking prompt remedial action to address performance issues that
    could prevent the timely completion of the project.

The CTO plays an important role in managing both the technical and administrative
aspects of the Priority Design Build Contract. Consequently, we are making the
following recommendation to ensure that USAID/Indonesia fully manages the contract to
help ensure that the contract achieves its objectives.

    Recommendation No. 2:          We recommend that USAID/Indonesia develop and
    implement procedures to periodically verify that the Cognizant Technical Officer is
    fully complying with his designated responsibilities, including (1) adequately
    reviewing contractor invoices for accuracy, (2) providing full administrative support to
    the contractor, (3) maintaining complete Cognizant Technical Officer work files, and
    (4) monitoring the contractor’s compliance with reporting requirements.




                                                                                          8
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Indonesia accepted the report’s two
recommendations. The Mission’s comments and our evaluation of those comments are
summarized below.

As a general comment, USAID/Indonesia stated that the draft report did not adequately
highlight that major road reconstruction activities were accomplished during the initial
three months of the Priority Design Build Contract. The Mission requested that we
include additional facts in the report to better describe the progress made during that
period. We made our best effort to present a balanced, objective view of the road
reconstruction activities and revised the report accordingly.

For Recommendation No. 1, USAID/Indonesia described six actions it had taken that it
believed would result in road construction being completed within the budget and time
frame of the Priority Design Build Contract. The actions taken included (1) modifying the
contract’s scope of work to initiate and complete construction of 8.2 kilometers of road,
(2) approving a final design for one segment and a preliminary design for another
segment of the 8.2-kilometer road, and (3) approving the contractor’s work plan and
construction schedule. Based on the actions the Mission’s stated it had taken, we
consider that a management decision has been reached for Recommendation No. 1.

For Recommendation No. 2, USAID/Indonesia described seven actions it had taken to
support and monitor the Cognizant Technical Officer (CTO). The actions taken included
(1) assigning engineers to review all contractor invoices for accuracy, (2) providing
administrative support to improve the contractor’s financial reporting, accounting and
invoicing, (3) issuing a letter to support the contractor’s tax-free status, and (4) adding
additional engineers to its road team to, among other duties, help maintain work files,
document site visits, and monitor contract reporting requirements.                We had
recommended that the Mission develop and implement procedures to periodically verify
that the CTO was fully complying with his designated responsibilities. The Mission did
not specifically address such procedures; however, its actions should have the same
intended effect of improving its administration of the Priority Design Build Contract.
Therefore, based on the actions the Mission stated it had taken, we consider that a
management decision has been reached for Recommendation No. 2.

USAID/Indonesia will need to coordinate final actions on both recommendations with
USAID’s Audit Performance and Compliance Division (M/CFO/APC).

USAID/Indonesia’s comments are included in their entirety in Appendix II.

.



                                                                                         9
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted government auditing standards. The audit was designed to
determine whether USAID/Indonesia’s Banda Aceh-Lamno road reconstruction activities
were on schedule to be completed as planned and within the cost estimates.

The audit covered the Banda Aceh-Lamno road reconstruction activities implemented by
Wijaya Karya under the Mission’s Tsunami Recovery and Reconstruction Program
during the period from August 23 through November 18, 2005. As of November 17,
2005, USAID/Indonesia had obligated funding of about $12 million and had disbursed
$875,000 in payments for the road reconstruction activities.

As part of the audit, we assessed the Mission’s significant internal controls over the
Banda Aceh-Lamno road reconstruction activities. The assessment included controls
related to whether the Mission (1) conducted and documented site visits, (2) required and
approved a contract implementation plan, (3) required and reviewed contractor progress
reports, and (4) reviewed contractor invoices and supporting documentation. We also
reviewed the Mission’s Federal Managers’ Financial Integrity Act report for fiscal year 2005
for those internal controls related to the audit objective.

We conducted the audit at USAID/Indonesia in Jakarta, Indonesia from November 21 to
December 7, 2005.      We also visited reconstruction activities along the Banda
Aceh-Lamno road.

Methodology

To answer the audit objective, we interviewed responsible officials and staff from the
Mission, the U.S. Army Corps of Engineers, the Priority Design Build contractor, and the
Architect-Engineer contractor. We also reviewed:

•   Documentation such as, but not limited to, accounting information, site visit reports,
    daily monitoring reports, prior audit reports, and appropriate correspondence.

•   Applicable contracts.

•   Applicable USAID policy and guidance related to the audit objective.

Since we could not determine whether all of USAID/Indonesia’s Banda Aceh-Lamno
road reconstruction activities were on schedule to be completed by the overall project
completion date and within the overall estimated costs, we did not establish a materiality
threshold for this audit.




                                                                                         10
                                                           APPENDIX II



MANAGEMENT COMMENTS
MANAGEMENT COMMENTS


                                                    March 27, 2006


MEMORANDUM

TO:        Catherine Trujillo, Inspector General, RIG/Manila

FROM:      Linda Tarpeh-Doe, Controller, USAID/Indonesia /s/

SUBJECT: Draft report on the Audit of USAID/Indonesia’s Banda
         Aceh - Lamno Road Reconstruction Activities Under its
         Tsunami Recovery and Reconstruction Program
         Audit Report No. 5-497-06-00X-P


As requested in your March 6 E-mail message following are the
Mission’s comments and suggested changes to the draft audit report.
We would like the auditors to consider incorporating these comments
into the final report to provide more actual facts and balance to the
report content.

The RIG audit focused on the first three months, August 23 –
November 17, 2005, of the design-build contract between USAID and
P.T. Wijaya Karya (WIKA). This total contract incorporates a 12
month time frame to complete all its requirements. The report did not
adequately highlight that major road reconstruction activities were
accomplished during this initial three month period per the
requirements of the contract. Within the first two months of the
contract, WIKA had cleared all debris and opened the 80 kilometer


                                                                   11
stretch of road from Banda Aceh to Lamno including bridges.
Because this is the only major road down the west coastline,
rehabilitating this transportation link was critical to support other
tsunami reconstruction activities taking place down the road corridor.
The contractor was successful in clearing bridge debris, completing
road repair and maintaining the newly opened road reducing travel
time between Banda Aceh and Lamno by half. The firm also created
local jobs, and sixty-five percent of the road construction employees
were Acehnese. The financial status report shows that most of the
disbursements went to mobilization, road maintenance, road
repair/rehabilitation and removal of bridge debris as expected in the
first three months of implementation. The draft audit report does not
reflect that the road reconstruction work estimated to be completed
within the first three months of the contract was in fact completed
expeditiously within the budget allocated to the contract.

Recommendation No. 1: We recommend that USAID/Indonesia
develop and implement an action plan with due dates to have an
approved road design and implementation plan in place so that
construction can begin and be completed by August 23, 2006.
Response: Road design for the new construction was started by
WIKA during the first three months of the contract as indicated in the
financial status table in the report, but a final design was not
approved by USAID during the first three months of the contract.
USAID/Indonesia developed a number of action steps to expedite the
approval of the design and commencement of construction. These
actions will result in road construction being completed within the
budget and time frame of the contract.

Action 1: USAID approved a revised technical scope of work for the
WIKA contract with recommendations from Parsons Global Services
on 1/27/06 and 2/14/06. Due to the critical nature of the construction
work under the priority contract, the WIKA scope of work was
changed to begin construction along two difficult segments of road
instead of four as originally planned. These two sections of road
were determined to require high maintenance to stay passable and
therefore were chosen over other segments of road to be constructed
under the WIKA contract.



                                                                     12
Action 2 : USAID/Indonesia has amended the contract with PT.
Wijaya Karya (Modification # 1 & # 2, dated 3/15/06 and 3/27/06) to
revise the scope of work to initiate and complete construction of a
total of 8.2 kilometers of road (instead of 20 Kilometers). Under
Modification #1, WIKA is to complete the design and construction of a
5.2 kilometer road segment (Section 1A, Lhoong to Pudeng,
Kilometer 54.7 to Kilometer 60) to be completed by August 23, 2006.
This modification also confirms that WIKA will not provide any further
design services other than Section 1A. All other design activities will
be completed by Parsons Global Services Inc., the A&E contractor,
as part of their overall road design services. This contract
modification also includes centerline and right-of-way (ROW) staking
and land mapping within the ROW to provide initial land ownership
information to facilitate land acquisition by the Government of
Indonesia. Under Modification #2, WIKA is to construct an
approximately 3-kilometer road section between Kilometer 15 to
Kilometer 18 from Banda Aceh, which includes the construction of the
80 meter span Raba River Bridge to be completed by August 23,
2006. The proposed construction activities under the above
modifications are expected to be completed within the “plug figure”
budget for construction currently under the WIKA contract and by
August 23, 2006, during the period of the contract.

Action 3: Parsons and USAID approved the design on 03/23/06 of
the 5.2 kilometers of road to be constructed by WIKA. A preliminary
design has been approved for the 3-kilometer segment.

Action 4: Contract reimbursement terms were changed to “fixed unit
cost” instead of “fixed price”. This will allow the construction related
activities to move forward (e.g. clearing and grubbing, excavation)
with preliminary design after the land acquisition negotiation is
complete. This will help meet the construction schedule.

Action 5: Parsons has mobilized a quantity surveyor in Aceh to
supervise WIKA’s construction work. Parsons will ensure that the
quality and quantities of materials used for construction are within the
contract standards and cost projections.

Action 6: WIKA’s work plan and construction schedule was

                                                                      13
approved on 3/23/06.

Issues-land acquisition and right of way: A Technical Steering
Committee was formed on 1/4/06 to facilitate decisions related to the
road construction, including land acquisition. Key Government of
Indonesia decision makers in regards to land acquisition and
procurement are members of the committee. In addition, WIKA has
engaged in meetings with Government of Indonesia officials and
community leaders to identify potential land acquisition issues so
these can be preempted through changes to the road design.

Adverse Weather: The rainfall in Aceh is expected to be low during
the period April – August when the construction will take place.


Mission Recommendation:
Based on the actions undertaken, we recommend RIG/A/Manila
determine that a mission management decision has been reached
upon the issuance of this audit report recommendation. A closure
request will be submitted to the Office of the Chief Financial Officer,
Audit Performance and Compliance Division (M/CFO/APC) with
supporting documents to substantiate the request.

Recommendation No. 2: We recommend that USAID/Indonesia
develop and implement procedures to periodically verify that the
Cognizant Technical Officer is fully complying with his designated
responsibilities, including (1) adequately reviewing contractor invoices
for accuracy, (2) providing full administrative support to the
contractor, (3) maintaining complete Cognizant Technical Officer
work files, and (4) monitoring the contractor’s compliance with
reporting requirements.

Response: USAID/Indonesia has taken the following actions to
support and monitor the CTO:

   • USAID has placed a US Army Corps Road Construction
     Engineer in Aceh. His work includes verifying accuracy of the
     Contractor’s invoices and overseeing the quality of the
     construction work. In addition, the A&E contractor, Parsons,
     has been mobilized in Aceh to conduct construction supervision

                                                                          14
      of WIKA’s effort. Another Senior FSN Engineer with road
      construction experience was transferred to the road project
      team as of 1/16/06 to support the CTO for WIKA.
  •   The USAID Financial Management Office is interfacing with
      WIKA directly to improve their financial reporting, accounting
      and invoicing process. All invoices are being reviewed by two
      USAID FSN engineers for accuracy.
  •   Trip reports are required by each team member for
      documentation. Meeting minutes are prepared by the
      contractors.
  •   Monthly progress reports are being submitted by WIKA
      regularly as per dates specified in the contract.
  •   The mission has also allocated additional administrative
      support to help improve the content of the files.


Other Comments:

  • Page 7, USAID issued a letter on February 21, 2006 to support
    tax free status of WIKA. The contractor never requested for
    duty free facilities. WIKA did not request duty free facilities
    because they do not plan to import any items from a foreign
    country. Under current activities, WIKA has primarily
    purchased gravel and soil locally.
  • Page 7, USAID/Indonesia strengthened the Road Team by
    adding one FSN Road Engineer in Jakarta and in the process
    of adding a USPSC and FSN Senior Engineer in Aceh. These
    additional staff will provide support to maintain work files,
    document site visits, and monitor contract reporting
    requirements.

In summary, the mission accepts the two recommendations reported
by the RIG/Manila audit team. We thank you for the opportunity to
allow the mission to provide comments on the draft audit report.




                                                                       15
U.S. Agency for International Development
         Office of Inspector General
         1300 Pennsylvania Ave, NW
           Washington, DC 20523
             Tel: (202) 712-1150
             Fax: (202) 216-3047
             www.usaid.gov/oig



                                            16
